                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                   Inspection of
                                           Embassy Nassau, The Bahamas
                                           Report Number ISP-I-12-08A, January 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                     i
                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents


Key Judgments                                                  1
Context                                                        2
Executive Direction                                            3
  Mission Strategic and Resource Plan and Public Diplomacy     3
  Security and Emergency Preparedness                          4
  Equal Employment Opportunity                                 4
  Entry-Level Officer Program                                  5
Policy and Program Implementation                              6
  Political/Economic/Commercial                                6
  Public Diplomacy                                             9
  Consular Operations                                         10
  Consular Agency Turks and Caicos                            13
Law Enforcement Cooperation                                   15
Resource Management                                           16
  Management Section                                          17
  International Cooperative Administrative Support Services   18
  Human Resources                                             19
  General Services Office                                     20
  Financial Management Operations                             23
  Information Management and Information Security             25
Quality of Life                                               28
  Community Liaison Office                                    28
  International Schools                                       28
  Health Unit                                                 28
  Employee Recreation Association                             29
Management Controls                                           30
  Ambassadorial Absence from Post                             30
List of Recommendations                                       34
List of Informal Recommendations                              37
Principal Officials                                           40
Abbreviations                                                 41




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador and new deputy chief of mission (DCM) are emerging strongly from a
       period of dysfunctional leadership and management. (b) (5)



   •   The Ambassador’s authorized absences from post exceeded those allowed in guidelines
       issued by the Under Secretary for Management. The embassy and the Bureau of Western
       Hemisphere Affairs did not follow Department of State (Department) procedures for
       vetting these absences.

   •   The regional security office is performing well in this critical crime threat post, (b) (5)


   •   The large and diverse law enforcement community in Mission Bahamas works well
       together, under the Ambassador’s leadership, to counter threats to U.S. national security.

   •   The consular section provides excellent services in a large geographic area of
       responsibility. However, its efforts have been hampered by the embassy’s inability to
       establish a consular agency in the Turks and Caicos Islands.

   •   The public affairs section (PAS), invigorated with the arrival of its first American public
       affairs officer in nearly two decades, manages an effective and robust outreach effort,
       though it should develop a network of exchange program alumni.

   •   The management section is also emerging from a difficult period, as evidenced by lower-
       than-average customer satisfaction scores. The DCM and new management officer are
       working to improve internal coordination among management sections and provide better
       service to employees, including those stationed at Freeport, Grand Bahama Island.

   •   Political and economic cables reflect excellent access to Bahamians at every level of
       society and government. Drafters, however, consistently neglect to add context or
       analysis to explain how events affect U.S. interests.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between September 13 and 28, 2011; in Nassau,
The Bahamas, between September 29 and October 12, 2011; and in Providenciales, Turks and
Caicos, on October 2, 2011. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        The Bahamas is a critical partner in ongoing efforts to ensure the security of the south-
east flank of the United States. As it fights drug and human trafficking with U.S. and
international support, The Bahamas seeks to maintain its status as a global financial center and as
an important tourist destination. The United States and The Bahamas share a close historical
relationship based on democratic values, economic and cultural ties, and a common desire for a
peaceful and stable Caribbean.

        Consisting of some 29 major and hundreds of smaller islands spread across 5,000 square
miles, The Bahamas is situated nearly equidistant from Florida and Cuba. For centuries, it has
been a favorite transit region and harbor for illegal sea-borne activities. Its 330,000 inhabitants,
two-thirds of whom live on New Providence, include a large illegal Haitian community with its
own cultural identity and language.

        A member of the British Commonwealth, The Bahamas maintains close relations with
the United Kingdom and is an active member of the Caribbean Community. Chinese diplomatic
engagement has grown in the past decade, largely through massive development projects. The
country maintains full diplomatic relations with Cuba as well as close relations with the United
States.

       The Bahamian economy relies heavily on international tourism and offshore finance.
With a per capita income of $22,000 (2010), The Bahamas is ranked as the third wealthiest
country in the Americas after the United States and Canada. The world economic downturn in
2008–2010 seriously affected tourism, which generates approximately 60 percent of The
Bahamas gross domestic product and employs half of its labor force. U.S. tourists make up 90
percent of the 5 million annual visitors. The Bahamas has a competitive tax regime to attract
foreign financial entities. It has no income, value-added, or corporate tax, relying instead on
import duties, fees, and property taxes for its revenue.

         Bilateral relations with the United States remain close. As a neighbor, The Bahamas
stability and prosperity are important to the United States. Cooperation has centered on
antinarcotics, illegal migration, regional security, and facilitation of travel to and from The
Bahamas. The embassy also has responsibility for consular relations with the Turks and Caicos
Islands, some 400 miles southeast of Nassau.

        Embassy Nassau hosts a complement of 22 direct-hire Department employees (plus 6
Marine security guards) who also support and coordinate the activities of 4 other Cabinet
departments, comprising 115 U.S. direct hires. Its staffing totals some 154 American personnel
and 61 locally employed (LE) staff. The chancery is a poorly designed building with few
common areas and little setback. The Department has scheduled it for replacement in 2016. Most
of the large Department of Homeland Security presence is at international airports in Nassau and
Freeport. Freeport is located on Grand Bahama Island, 120 miles or an hour flight from Nassau.
The embassy had a limited-scope inspection in 2007.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The mission is led by an active noncareer Ambassador at post for 2 years and an
experienced DCM at post for less than 90 days. The two are forging a good team, with the
Ambassador focused principally on public outreach activities associated with the Mission
Strategic and Resource Plan (MSRP) and the DCM on needed improvements in internal
management. Mission personnel are encouraged by the new front office spirit. The Ambassador
chairs weekly country team and law enforcement working group meetings, which the DCM
attends. Meetings are collegial, with team members comfortable to exchange views and offer
informal commentary.

        The embassy is recovering from an extended period of dysfunctional leadership and
mismanagement, which has caused problems throughout the embassy. Programs such as entry-
level officer mentoring, Equal Employment Opportunity (EEO), and the Federal Women’s
Program floundered. Critical security upgrades in embassy housing were not made, and the U.S.
Government paid rent for 2 years on a vacant consular agency office in the Turks and Caicos
Islands. (b) (5)


        The Ambassador had not had frequent policy-level interaction with the Department or
other Washington agencies. At the beginning of her tenure, she relied unduly on her former
DCM to attend to day-to-day contacts with the desk and other offices in the Department.
Interviews in Washington likewise revealed that the front office of the Bureau of Western
Hemisphere Affairs and other Washington agencies were not in regular contact with the
Ambassador about the conduct of her mission. This lack of regular contact contributed to the
Ambassador’s sense of isolation from the Department.

         According to numerous accounts from mission personnel, the previous DCM did not
provide the Ambassador or the rest of the staff with adequate support and had a management
style many found intimidating. The Ambassador did not take effective action to counteract the
perception of an unwelcoming front office and instead focused her activities outside the
embassy. Her extensive travel out of country and preference to work from the Ambassador’s
residence for a significant portion of the work day contributed to a perception of indifference,
(b) (5)                             The Ambassador and new DCM recognize that corrective
actions to address morale are essential and had already begun instituting informal steps to restore
morale prior to this inspection. Both have solicited and welcomed the OIG team’s suggestions to
assist them in this regard. 1

Recommendation 1: (b) (5)


Mission Strategic and Resource Plan and Public Diplomacy

        Embassy Nassau follows its FY 2012 MSRP plan, which establishes six main goals with
appropriate performance indicators. The plan attaches priority to law enforcement and
antiterrorism efforts and to public diplomacy activities meant to deepen already excellent U.S.

1
    Following the OIG inspection, the Ambassador resigned her position and departed post on November 21, 2011.
                                                 3
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

relations with The Bahamas by emphasizing American interest in the welfare and civil society of
Bahamians. Given the high level of U.S. tourism to The Bahamas, the MSRP also focuses on
protecting American citizen interests and with working to ensure that Bahamians can visit the
United States securely.

        The Ambassador, with the able assistance of the PAS, has implemented an impressive
outreach program in support of MSRP goals. By drawing on her personal contacts with
prominent Americans, organizing civil society-related conferences, highlighting her travel to
outlying Bahamian islands, and undertaking activities to promote business connections between
American and Bahamian communities, she and her staff have improved the embassy’s reputation
among Bahamians. This, in turn, has fostered a close bilateral environment that is conducive to
excellent law enforcement cooperation. With the Ambassador’s support, the new DCM intends
to review MSRP indicators to determine the effectiveness of current activities and to recommend
plan adjustments.

Security and Emergency Preparedness

         The Ambassador and DCM support a robust security program to counteract Nassau’s
critical crime threat. The passage of Hurricane Irene only 2 weeks before the inspection tested
the mission’s ability to prepare for and weather a serious emergency. Interagency coordination of
evacuation plans revealed the need for improvement, but the overall response was effective in
protecting mission personnel and property.

Equal Employment Opportunity

        The Ambassador and the DCM emphasized to the inspection team that they support the
Department’s EEO goals. The Ambassador recruited the current EEO counselor, but before the
inspection there was no active EEO program in the embassy. A review of management notices
for the 24 months prior to the inspection found none supporting EEO or publicly identifying the
counselor. During the OIG inspection, the embassy established an EEO bulletin board, appointed
a Federal Women’s Program coordinator and a Foreign Service National EEO liaison, and issued
a management notice on the EEO program to all staff. The current EEO counselor has not
received mandatory training and is scheduled to depart post in May 2012. The total number of
employees exceeds 200, including almost 100 U.S. direct hires from the Department of
Homeland Security and the Drug Enforcement Administration. Foreign Affairs Manual
regulation 3 FAM 1514.2 a. strongly encourages embassies with more than 50 employees to
nominate a second EEO counselor. The designation of a second counselor would help (b) (5)
                             provide continuity during transfers.

   Informal Recommendation 1: Embassy Nassau should provide training for the current
   Equal Employment Opportunity counselor at the next available opportunity.

   Informal Recommendation 2: Embassy Nassau should nominate a second Equal
   Employment Opportunity counselor for training and designation.




                                          4
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Entry-Level Officer Program

        The embassy’s entry-level officer program has been neglected and is ineffective. Entry-
level officers have come to rely on immediate supervisors for informal guidance. Front office
engagement has been sporadic and unfocused. Entry-level officers have not been included
regularly in mission representational events nor have regular discussion sessions been held. The
new DCM is aware of this issue and has taken steps to address it.




                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic/Commercial

        The combined political/economic/commercial section plays an important role in planning
and drafting the MSRP. Three of the six MSRP goals are directly related to the section’s
portfolio: international crime, drug smuggling, and illegal migration; prevention and response to
terrorism; and economic growth and development. The crime and terrorism portfolios require
consistent and continuous cooperation with the six law enforcement entities in the mission.

        More and better reporting is needed from the section. Political and economic cables
reflected excellent access to Bahamians at every level of society and government. Drafters,
however, consistently failed to include context and/or analysis to explain why events are
important to U.S. interests. For example, cables on labor unrest or the impact of massive Chinese
investment in The Bahamas were reported with little comment and no analysis.

        Cables written in the past year show little political reporting or analysis on international
crime, drug smuggling, and illegal migration or on prevention of terrorism, both of which are key
MSRP goals. Although law enforcement agencies in the mission cover the operational end of
those issues, the political section needs to provide analytical reporting on these goals. There was
also no recent economic reporting on offshore financial or banking services, the second most
important sector of the Bahamian economy.

   Informal Recommendation 3: Embassy Nassau should write a political/economic/
   commercial reporting plan that is tied to Mission Strategic and Resource Plan goals and
   includes information from law enforcement entities in the mission.

   Informal Recommendation 4: Embassy Nassau should increase the quality of its
   political/economic/commercial reporting by adding more context and analysis.

         The summer transition reduced staffing temporarily in the political/economic/commercial
section from six to two. Reporting suffered accordingly. All three political/economic officers and
the office manager transferred, as did the narcotics affairs section officer. One of two LE staff
members went on extended leave. The new political/economic chief arrived to find little
institutional memory. His predecessor did not leave handover notes.

        Since his arrival, the political/economic/commercial section chief has worked almost
singlehandedly on projects that enhance cooperation between the United States and The
Bahamas, including outreach. Now that staff is in place, the chief is planning the section’s work
and identifying topics of interest. Rather than simply changing the names on old work
requirements statements, the section chief has decided to mix and match the abilities and
interests of the staff to key issues, with an eye to maximizing the quality and quantity of
reporting. He plans to add elements of economic reporting to the political officer’s duties and
assign some political tasks to the economic officer. In addition, the two economic/commercial
LE staff members will contribute to political cables.

       There is no LE staff member dedicated to political reporting. The FY 2012 MSRP
requests an additional position for an LE staff person, especially in light of local elections
                                                 6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

scheduled for 2012. The OIG team believes that effective restructuring would make this
additional staff member unnecessary.

         In the past, the commercial assistant helped public affairs staff with the daily media
report. The responsibility for this report is temporarily with the PAS, and the OIG team concurs
that it should remain there permanently. This arrangement will allow the commercial assistant to
do political and economic spot reporting, a duty that she previously performed well.

        The political/economic/commercial section office manager position became vacant in
April 2011. The Department plans to assign a new U.S. direct-hire office manager soon. The
2008 OIG inspection report informally recommended that the embassy hire an eligible family
member for the job. Considering that three cleared office managers (for the Ambassador, DCM,
and political/economic/commercial chief) all sit in the same work area, an eligible family
member could adequately fill the position, (b) (5)                   by providing another
employment opportunity for a spouse. In addition, converting the position would allow the
Department more than $500,000 to put to better use compared to the cost of a U.S direct-hire
position.

Recommendation 2: The Bureau of Human Resources, in coordination with Embassy Nassau
and the Bureau of Western Hemisphere Affairs, should convert the political/economic/
commercial section office manager position to an eligible family member position. (Action:
DGHR, in coordination with Embassy Nassau and WHA)

        Because direct-hire position costs are largely paid by the Department’s central funds and
LE staff is paid using embassy funds, the embassy would have little financial incentive to
convert the position to an LE one—even if it resulted in a net savings to the U.S. Government.
Indeed, during the inspection, the Bureau of Western Hemisphere Affairs continued with the
assignment of a direct-hire office manager to the political/economic/commercial section position
with the knowledge that the OIG team was recommending the elimination of the position. To
restore the financial incentive for the embassy and bureau to convert the position, there must be a
mechanism to make the embassy whole.

Recommendation 3: Embassy Nassau, in coordination with the Bureau of Western Hemisphere
Affairs and the Bureau of Resource Management, should fund a locally employed office
manager position, in lieu of not filling the direct-hire position in the political/economic/
commercial section, by reallocating bureau support funds for the eliminated position and
including additional central funds, as necessary. (Action: Embassy Nassau, in coordination with
WHA and RM)

Leahy Vetting

        The political section handles Leahy vetting of candidates for foreign assistance and
training to ensure that the individuals or security force units selected have no record of human
rights violations. The embassy has been using an outdated email reporting system that is not
compliant with Department instructions. In addition, the workflow is complicated and time
consuming because some contributing offices use different systems. The new political officer is
taking the online international vetting and security tracking software course and will work with
other embassy stakeholders (regional security office, Drug Enforcement Administration, Office
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

of Defense Cooperation, and narcotics affairs section) to convert to the new Web-based system.
The embassy expects to be Leahy compliant by the end of October 2011.

Commercial Unit

        Two LE staff members make up the commercial unit, which began to keep records of
success in advocacy toward the end of 2010. Even when the commercial unit facilitates contacts
with U.S. companies, one staff member reports that in the small Bahamian business community,
companies are reluctant to report successes or purchases for fear that competitors will learn of
their activities. For example, in March 2011, the commercial section led a delegation of 15
companies to a consumer goods show. Despite follow-up by the commercial section, no
company provided information on contacts or purchases from the show. The commercial section
currently has two ongoing cases of advocacy between Bahamian and U.S. companies.
Approximately 10–15 American business representatives annually request appointments with the
economic or commercial section.

        The Ambassador has been active in promoting business education and development. She
invited a music industry executive and former basketball player Magic Johnson to the Bahamas
to speak to the Bahamian Chamber of Commerce. She also promotes women in business fora for
professionals and students.

       Coordination among all elements of the combined section is good. In addition to weekly
country team meetings, Department section heads meet weekly with the Ambassador and with
one another.

HIV/AIDS

        The political/economic/commercial section administers the President’s Emergency Plan
for AIDS Relief. Funding is $5 million over 5 years and includes seven ongoing projects. Several
U.S. Government entities are involved, including the U.S. Agency for International Development
in Jamaica; the Health Resources System Administration; the Department of Defense, in
cooperation with the Bahamas Defense Force; and the Ambassador’s HIV Prevention Fund. The
Centers for Disease Control maintains an office in the chancery that is staffed by a locally hired
doctor who administered $710,000 in FY 2012 for HIV/AIDS programs to assist the Ministry of
Health in HIV monitoring, evaluation, prevention, laboratory strengthening, and health system
strengthening. The doctor is supervised by the Centers for Disease Control regional office in
Barbados but participates in political/economic/commercial section staff meetings at Embassy
Nassau.

Contact Database

        Embassy Nassau does not have a central database for all sections’ contacts. For large
events, the protocol assistant patches together guest lists from different sections and passes
around the guest list from the previous year’s event to embassy officers and LE staff for
additions and subtractions. She then incorporates the changes into a cumbersome Excel
document to create a master guest list. The process would be less time consuming and more
reliable if the embassy had a centralized database, which would also allow employees to create
their own guest lists for smaller events and targeted mailing lists.
                                          8
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 5:        Embassy Nassau should create and use a central contact
   database.

Public Diplomacy

        The PAS works closely with the Ambassador and political/economic/commercial section
on mission priorities. Using the ambitious MSRP public diplomacy goal paper and
implementation plan, the Ambassador engages target audiences, such as at-risk youth and
underserved communities, throughout The Bahamas. The PAS promotes MSRP goals through its
use of digital media, strengthens the civil sector through training and exchanges, and raises
awareness about the issues affecting socially excluded groups. The Ambassador attends the
embassy’s law enforcement working group meetings. The public affairs officer (PAO) measures
her progress toward these goals through mission activity tracking system reporting. Embassy
Nassau does not have an Information Resource Center or any “American spaces.”

        The PAO is retraining the two LE staff members to use digital media outreach tools such
as Facebook and YouTube. The media assistant recently added to the embassy’s Internet site
links to relevant U.S. Government Web sites, including those of the U.S. Coast Guard and the
U.S. Agency for International Development, and is introducing contests on the embassy’s
Facebook page to attract new “fans.” The PAO is reestablishing relations with traditional
cultural contacts and reaching out to youth through sports diplomacy and educational activities.

        Embassy Nassau sends four to five Bahamian professionals to the United States to
participate in regional or multiregional International Visitor Leadership projects each year.
Because of the small number of potential participants, the embassy does not have a formal
mechanism for nominating participants. The PAO works closely with the rest of the mission to
identify possible participants. The embassy hopes that the Bureau of Educational and Cultural
Affairs will designate a Fulbright scholar position for The Bahamas. The OIG team supports this
goal.

Alumni Outreach

        The section does not maintain an exchange program alumni database. Instead, the PAO
organizes outreach to exchange alumni on an ad hoc basis. Without a database to manage the
growing number of alumni, the section could inadvertently exclude some alumni from events.
Each individual who has participated in an exchange program is a potential resource for
achieving Embassy Nassau’s MSRP goals and objectives. Deepening the mission’s connection
with alumni would help sustain partnerships and promote public affairs goals.

Recommendation 4: Embassy Nassau should use the Alumni Archive as its exchange program
alumni database and work with the Bureau of Educational and Cultural Affairs, Office of Alumni
Affairs, to promote alumni outreach activities in The Bahamas. (Action: Embassy Nassau)

Grants Administration

       Until September 2011, the PAO was the only warranted grants officer in the embassy and
approved all embassy grants, a practice not recommended by the Federal Assistance Policy
Handbook (Section 1.2.2). These grants included significant hurricane disaster assistance and
                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

HIV/AIDS awareness grants, which increased the PAO’s responsibility from $70,000 in public
diplomacy programs to $175,000 in a wide variety of grants.

        Although the political/economic/commercial section chief recently received a grants
warrant and has begun to approve nonpublic diplomacy grants, the day-to-day administrative
work associated with the processing and monitoring of grants continues to fall to the cultural and
education specialist. This responsibility constitutes a significant part of her workload. The PAS
has deobligated all unused grants funds as required, but the grants files for 6 of the 19 completed
grants issued by the PAS from March 2010 to September 2011 do not contain final reports, a
shortfall that both the PAO and cultural and education specialist attributed to the increased
workload. Until the political/economic/commercial section office management specialist and the
narcotics affairs section LE staff take on grants approval and administration-related
responsibilities, the cultural and educational specialist will continue to perform grants-related
tasks not relevant to the goal of increased cultural outreach for which she is responsible.

   Informal Recommendation 6: Embassy Nassau should assign responsibility for grants
   administration to the political/economic/commercial section office management specialist
   and the narcotics affairs section locally employed staff according to their areas of
   responsibility and provide them with the necessary training.

Cultural and Media Specialists’ Additional Administrative Duties

         Both the cultural and educational specialist and the media specialist perform
administrative duties that detract from their ability to carry out more important public diplomacy
activities. The cultural and education specialist spends approximately 25 percent of her time on
grants administration. The media specialist spends approximately10 percent of her time working
on the PAS budget, a task she shares with the PAO. The media specialist’s digital media-related
skills could be more fully developed and used if she did not also have significant budget-related
responsibilities. Finally, the PAO spends roughly 45 percent of her time on grants administration,
budgeting, travel planning, and other administrative tasks. Additional staff is needed.

   Informal Recommendation 7: Embassy Nassau should develop quantitative evidence
   documenting the need for a public affairs section administrative/program assistant and
   request the position in its next strategic planning request.

Consular Operations

        The consular section is providing good services to approximately 5 million U.S. citizen
visitors and 35,000 U.S. citizens resident in a large consular district that, in addition to The
Bahamas, includes the Turks and Caicos Islands some 400 miles southeast of Nassau.

       Citizens of The Bahamas do not require visas to visit the United States for tourism or
business, provided they depart The Bahamas through the Department of Homeland Security’s
Customs and Border Protection (CBP) preclearance facilities in Nassau or Freeport and are in
possession of a valid passport and police clearance. British subjects resident in the Turks and
Caicos Islands also do not require U.S. visas, provided they arrive in the United States directly
and are in possession of a valid passport and police clearance.


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The consular section has adequate work and waiting room space with good line-of-sight
supervision. The consular waiting area is occasionally used for programs, as there is no
multipurpose room at the embassy. The consular chief had been at post only a few weeks at the
time of the inspection and had already established himself as a positive force both for improving
morale and for reviewing procedures. LE staff members are well trained and function effectively
as a team. Visa appointment wait times average only 10 days, and service quality is good.

         The section needs better signage. American citizen and foreign national consular clientele
wait under a narrow canopy outside the embassy before going through the security entrance.
Once past security, they cross a driveway and must turn to a side consular entrance. The OIG
team observed consular clientele entering the chancery front door, where the local guard force
redirected them to the consular entrance. The Consular Web management guidance on signage
states that “adequate signage is important…, as it helps applicants understand the process better
and improves the flow of applicants." Better signage would improve security and flow of
individuals coming to the consular section for services.

   Informal Recommendation 8: Embassy Nassau should improve consular signage to
   provide consular clientele with clear directions.

American Citizens Services

        The consular section provides good routine and emergency services to Americans visiting
or living in the consular district. Great distances between islands complicate travel and
communications, making good contacts and effective outreach essential. Hurricanes and tropical
storms regularly threaten the area, creating the need for a well-developed emergency
preparedness program. A robust and effective warden system covers the major islands in The
Bahamas and the Turks and Caicos Islands. The American citizens services unit has a broad
network of contacts, which includes major cruise lines, hotels, and Bahamian authorities.

Outreach and Public Information

       The consular section is responsible for updating consular information on the embassy’s
Web site. Several employees told the OIG team that they had responsibility for managing the
consular portion of the Web site and expressed a need for further training.

   Informal Recommendation 9: Embassy Nassau should designate and train one employee
   to maintain the consular content on the embassy Internet site and to perform the updates in
   coordination with the public affairs section and the Bureau of Consular Affairs webmaster.

Special Consular Services

        Most American tourists come to the consular district on cruises and do need to have
passports. The most common problems facing Americans are related to illness, arrests, and lack
of valid passports. Seriously ill or injured travelers admitted to local hospitals are often left
behind by cruise ships. If they leave the cruise, and were traveling without a valid passport, they
must obtain passports from the consular section or get a passport waiver from the CBP’s
preclearance facilities in Nassau or Freeport. The consular section processed 234 limited validity
emergency passports in the past 12 months—with same-day service.
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        In FY 2011, Bahamian police arrested almost 100 Americans for minor drug crimes.
They are usually able to return home after an overnight detention and payment of a fine. At the
time of the inspection, eight Americans were incarcerated for more serious crimes in The
Bahamas and two were serving sentences in the Turks and Caicos Islands. Judicial processing is
slow, but there is no evidence of prejudicial treatment of incarcerated Americans. Legal or
medical problems can leave Americans in financial difficulties, and the consular section
frequently deals with destitute people.

Visas

        Bahamians generally do not require visas to visit the United States. According to consular
workload statistics, they accounted for only 40 percent of the nearly 24,000 nonimmigrant visa
cases in FY 2011. Haitians, Cubans, and Jamaicans account for another 20 percent, with the
remaining applicants coming from more 100 other countries. Immigrant visa workload has held
steady at between 220 and 250 applicants annually.

        Visa appointment wait times are generally less than 1 week, but during high-volume
periods and staffing gaps, they can be as long as 4 weeks. Appointments are set for half-hour
intervals beginning at 7:00 a.m. and ending at 9:30 a.m.; interviews continue throughout the
morning. The embassy Web site provides an option for emergency appointments for visas but
does not specifically indicate how applicants from the other islands in the consular district can
request appointments that would coordinate with flights from the outer islands. The OIG team
learned that some applicants from outer islands feel they need to travel the day before to appear
in time for a 7:00 a.m. visa interview.

   Informal Recommendation 10: Embassy Nassau should update the visa appointment
   system so that appropriate accommodations are in place for applicants coming from other
   islands in the consular district.

   Informal Recommendation 11: Embassy Nassau should update the information on the
   embassy’s Internet site so that instructions for making visa appointments address applicants
   traveling from other islands in the consular district.

Waivers of Ineligibilities

       An unusual number of visa applicants have criminal records, previous overstays in the
United States, or other ineligibilities for visa-free entry. In accordance with 9 FAM 40.301,
consular officers have the authority to recommend Immigration and Nationality Act Section
212(d)(3)(A) waivers of ineligibilities to the Department of Homeland Security’s U.S.
Citizenship and Immigration Services, which has a regional office in Kingston, Jamaica. In FY
2011, the consular section submitted almost 450 requests for waivers, ranking Nassau among the
top 10 waiver processors of all U.S. visa-issuing posts.

        Visa officers indicated that they were uncomfortable with recommending waivers for
individuals with serious ineligibilities, many of whom have a history of previous waivers that has
raised expectations of entitlement to routine waiver receipt. The new consular chief indicated his
willingness to review the policy with the adjudicating officers to develop guidelines for
considering each case in light of the reason for the visa ineligibility and the purpose of travel.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Requests for waivers of ineligibility are labor intensive and delay processing of visas for all
applicants. Inconsistent policy regarding waiver recommendations can also be confusing for
applicants. According to 9 FAM 40.301 N3 a., adjudicating officers can exercise this authority
when the applicant is entitled to seek a waiver and is otherwise qualified for a visa, but only
when the granting of a waiver is not contrary to U.S. interests. Adjudicating requires consistent
guidance to determine when recommendations for waivers are appropriate and to make the visa
process more streamlined and transparent.

Recommendation 5: Embassy Nassau should review Department of State criteria for
recommending waivers of visa ineligibilities and apply those standards to the visa process to
facilitate the application of consistent policy for each waiver recommendation. (Action: Embassy
Nassau)

Visas Viper

       The Visas Vipers committee meets once a month; all reports in the 12 months prior to the
OIG visit were made on time and followed 9 FAM 40.37 guidance. The embassy made no
submissions during the period evaluated.

Embassy Visa Referral Program

        The OIG team reviewed all nonimmigrant visa embassy referrals submitted in FY 2011.
The embassy issued worldwide visa referral guidelines as a management notice in January 2011,
with edits highlighting local procedures. Not all referring officers had signed certifications on
file showing that the consul had briefed them on the visa referral program. Many referring
officers submitted referrals without passports, completed application forms, and accompanying
documents. The nonimmigrant visa LE staff did not scan documentation into the nonimmigrant
visa system for all cases. Department regulation 9 FAM Appendix K, 101 a. states that “a well
run and judicious visa referral system is an important tool for advancing U.S. interests abroad.”
The new consular chief has taken initial steps to tighten procedures by reissuing the worldwide
referral guidelines without edits and ensuring that referring officers sign certifications after he
briefs them personally. He has already instructed LE staff to scan all documentation into the
nonimmigrant visa system. A well-run embassy referral system facilitates the issuance of visas to
key contacts whose travel is clearly in the U.S. interest and prevents attempts at inappropriate
influence, or the appearance of such, on individual visa adjudications.

Recommendation 6: Embassy Nassau should update its visa referral program and institute
procedures to comply with Department of State regulations. (Action: Embassy Nassau)

Consular Agency Turks and Caicos

         A consular agency in the Turks and Caicos Islands would enhance Embassy Nassau’s
ability to provide services to the islands, some 400 miles from Nassau. Unfortunately, the
embassy has poorly managed the process to establish one.

       After the last OIG inspection, the embassy requested a consular agent for the Turks and
Caicos Islands in Providenciales. The Under Secretary for Management approved the post in
September 2008. The U.S. Government leased office space on August 31, 2009, and as of
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

September 2011 paid $20,800 per year in rent. The embassy requested permission to establish
the consular agency from the United Kingdom only in September 2011. The request was
approved 3 weeks later, during the inspection. The embassy hired a half-time consular agent in
May 2010, and she attended basic consular training at the Foreign Service Institute in July 2011.
However, because the U.S. Government did not have permission to open the consular agency, it
had not outfitted the rented office space. The matter finally seems to be proceeding forward after
years of mismanagement. The classified annex to this report addresses issues relating to the
security enhancements for the office.




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Law Enforcement Cooperation
        Key officials in Washington and at the embassy agree that law enforcement cooperation
at post is strong. The Ambassador works closely with law enforcement agencies. The embassy
holds a weekly coordination meeting that is attended by representatives from law enforcement as
well as the political section and the PAS. The MSRP rightly emphasizes the importance of law
enforcement efforts.

         Coordination is essential, given that the embassy’s 105 law enforcement positions dwarf
the Department’s 32 U.S. direct-hire staff. As found by the previous OIG inspection in 2008, the
trilateral, multiagency Operation Bahamas and The Turks and Caicos, led by the Drug
Enforcement Administration, has been a very successful joint and combined antidrug activity.

      Another major law enforcement element of the mission is the CBP, which runs
immigration and customs preclearance facilities in Nassau, New Providence, and Freeport,
Grand Bahama Island. With 60 officers, CPB is the largest single contingent in the U.S. mission.

       The U.S. Coast Guard also has a detachment in the embassy, with 10 staff members who
work closely with the Royal Bahamas Defense Force to conduct joint search-and-rescue and
antismuggling operations. A legal attaché and representatives from the Department of Homeland
Security’s Bureau of Immigration and Customs Enforcement and Transportation Security
Administration round out the law enforcement team.

        The Ambassador’s efforts to facilitate law enforcement cooperation are notable. For
example, when a Bahamian newspaper publisher attacked Department of Homeland Security
officers in his publication, the Ambassador initiated a dialogue that defused the situation. The
Bureau of International Narcotics and Law Enforcement noted the Ambassador’s significant
commitment and input to the Coast Guard’s cooperation with the Royal Bahamian Police Forces
and the Royal Bahamian Defense Force.

Narcotics Affairs Section

        The Department’s narcotics affairs section has one officer and one eligible family
member assistant. The section is involved with all parts of the mission, given the heavy emphasis
on law enforcement issues. At the time of the inspection, the narcotics affairs officer had been at
post for 1 week. Because of the embassy’s good track record, the Bureau of International
Narcotics and Law Enforcement Affairs identified Embassy Nassau for an increase in funding
from $1.6 million to $2.9 million as part of the Caribbean Basin Security Initiative to provide
law enforcement professionalization and support drug demand reduction. The narcotics affairs
officer said he will be able to disburse the additional funds without more staff.

       The Caribbean Basin Security Initiative also includes Foreign Military Financing funds to
support capacity building within the Royal Bahamas Defense Force, to sustain its own
operations, and to conduct joint operations with the U.S. military and law enforcement.




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management

                                            U.S.      U.S.
                                                              Foreign              Total
                                           Direct-   Local-              Total
                Agency                                        National            Funding
                                            Hire      Hire               Staff
                                                               Staff              FY 2011
                                            Staff    Staff
Department of State
 Diplomatic and Consular Programs                7        1         14      22    $2,596,000
 Representation                                                                      $45,000
 Narcotics Affairs                              1         1                  2      $226,000
International Cooperative Administrative       11        11         32      54    $4,290,000
Support Services
 Public Diplomacy                                1        0          2       3      $222,000
 Diplomatic Security                             2        3          5      10    $2,238,000
 Marine Security Guard                           6        0          4      10      $285,000
 Office of Overseas Buildings Operations         0        0          1       1    $1,065,000
Department of Defense
 Office of Defense Cooperation                   4        0          1       5    $1,207,000
Department of Justice
 Drug Enforcement Administration               32         0          1      33    $9,106,000
 Legal Attaché                                  1         0          0       1      $180,000
Department of Homeland Security
 U.S. Coast Guard                              10         0          0      10    $1,700,000
 Immigration and Customs Enforcement            1         0          0       1      $128,000
 Customs and Border Protection                 60         0          0      60    $1,956,000
 Transportation Security Administration         1         1          0       2      $359,000
Other Foreign Assistance
 Centers For Disease Control                    0         0          1      1       $104,000
Totals                                        137        17         61    215    $25,707,000




                                       16
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Section

        The management officer is new to Nassau and is focused on implementing internal
controls and improving International Cooperative Administrative Support Services (ICASS). Her
major goal is to improve customer service, particularly in housing and motor pool. She is
improving communication with and service delivery to the 43 CBP employees based at the
international airport in Nassau and is working with the DCM to determine how best to manage
administrative support to the 17 CPB and 6 Drug Enforcement Administration employees in
Freeport, Grand Bahama Island.

        The ratio between ICASS and U.S. direct-hire staff at Embassy Nassau is approximately
half the desirable ratio for the region, as determined by the ICASS Service Center. Enhanced
services in the areas of housing, facilities management, and motor pool would improve
operations, enhance morale, and strengthen internal controls. Each of these areas is addressed in
the report.

        One of the embassy’s biggest management challenges is to stay in close touch with the
CBP contingents at the Nassau International Airport and in Freeport. To spend more time
visiting CBP offices (and other locations), the management officer recently filled the long-vacant
management assistant position.

       Because of chronic staffing gaps, embassy provision and oversight of ICASS services to
employees in Freeport has been uneven. ICASS service providers should meet established global
uniform service standards consistently in all ICASS cost centers. In an attempt to improve
services to ICASS clients in Freeport, the embassy recently hired an eligible family member in
Freeport who performs community liaison office (CLO) and housing assistant functions. The
employee, however, is not trained, and communication with the management section in Nassau is
sporadic.

Recommendation 7: Embassy Nassau should implement a comprehensive support plan for
Freeport that includes at least quarterly visits by the management officer. (Action: Embassy
Nassau)

       The housing program for CPB Freeport does not follow Department guidelines. Because
the operation in Freeport is limited to CBP and Drug Enforcement Administration, and is distant
from the embassy in Nassau, it has evolved to a relatively independent operation. Per 15 FAM
211.1 a. and b., all houses in the housing pool must be within appropriate size, space, and cost
standards. Failure to adhere to those guidelines results in inequitable service and could
jeopardize the safety of Freeport employees.

Recommendation 8: Embassy Nassau should implement a comprehensive housing program for
Freeport that includes at least quarterly visits by the supervisory general services officer.
(Action: Embassy Nassau)

        Embassy staff describes management services as uneven and unsatisfactory. More than
half of ICASS clients are from CBP, and most CPB employees and their families are living and
working in an overseas environment for the first time. Automated work order systems are not
accessible to spouses. Obtaining services can be a cumbersome and confusing process that is
                                         17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

frustrating for both the client and the service provider. The Department’s collaborative
management initiative requires posts worldwide to put in place a quality coordinator to better
measure and evaluate administrative support. The embassy does not have a quality coordinator
and so is unable to measure its performance or compete for ICASS resources. Without improving
the work request system, client frustration will continue to build. A customer service
representative would streamline service requests and meet collaborative management initiative
requirements.

Recommendation 9: Embassy Nassau should designate an International Cooperative
Administrative Support Services customer service representative to help process work orders and
advocate for and manage client interests. (Action: Embassy Nassau)

   Informal Recommendation 12: Embassy Nassau should have the customer service
   representative provide training to clients on automated work request programs.

Real Property

        The embassy owns the chancery, the Ambassador’s residence, the DCM’s residence, the
marine security guard residence, and a residence currently occupied by the political/economic/
commercial section chief. The warehouse and health unit are in satisfactory leased spaces. There
is no vacant or underutilized property in Nassau. As noted earlier, the U.S. Government has been
paying rent on a vacant office in Providenciales, Turks and Caicos Islands, since September
2009, pending establishment of a consular agency.

International Cooperative Administrative Support Services

       The Department is the single ICASS provider. There are five Cabinet departments
represented on the ICASS council, including the Departments of State, Defense, Justice,
Homeland Security, and Health and Human Services. The ICASS customer satisfaction survey
showed a decrease in overall scores from 3.89 in 2010 to 3.58 in 2011, well below the regional
bureau average. American personnel services (3.07), leasing (3.33), and travel services (3.34)
received the lowest scores. The OIG workplace and quality-of-life questionnaires confirmed the
ICASS survey assessments.

        The ICASS council was disbanded when the previous chair departed post in the summer
of 2011. Neither is there a budget committee. Agencies demonstrate little concern about ICASS
and give only token approval for workload counts and budget estimates. According to Foreign
Affairs Handbook regulations 6 FAH-5 H-012.6 and 6 FAH-5 H-012.7, each embassy must
establish an ICASS council that includes post-level senior representatives of Cabinet-level and
independent agencies, as well as an ICASS budget committee to monitor the embassy’s ICASS
budget process.

Recommendation 10: Embassy Nassau should reconstitute the International Cooperative
Administrative Support Services council and budget committee in accordance with Department
of State regulations. (Action: Embassy Nassau)




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Human Resources

       The human resources staff includes three human resources assistants. Two are devoted to
LE staff issues, while the third, an eligible family member, handles American personnel. A
regional human resources officer in Ft. Lauderdale, Florida, provides support; a memorandum of
agreement specifies six visits per year.

        The human resources section maintains a spreadsheet for tracking the issuance and
completion of employee evaluation reports. There were five LE staff employee evaluation
reports overdue from September that supervisors were in the process of completing. The
embassy employs 17 eligible family members.

Locally Employed Staff Position Descriptions

        The OIG team reviewed a sample of personnel folders and found that a number did not
include current position descriptions. Supervisors have not updated or confirmed position
descriptions during the annual performance evaluation process. Per 3 FAH-2 H-443, position
descriptions must remain current to ensure the accuracy of job requirements. If position
descriptions do not accurately reflect the actual duties performed by the employee, there can be
gaps in performing essential duties and adequately documenting performance.

Recommendation 11: Embassy Nassau should update all outdated locally employed staff
position descriptions to reflect actual responsibilities and duties performed. (Action: Embassy
Nassau)

Supplemental Pension Plan

        The employee supplemental pension plan is managed by a life insurance company,
Colina Financial Advisors Limited. There is, however, no formal agreement between the
embassy and the company. A proposed contract for the plan is under review by the Department’s
Bureau of Human Resources, Office of Overseas Employment, and the Department’s Legal
Adviser for Employment. In the meantime, the embassy continues to make payments and
employees continue to make contributions to the plan. The embassy has been waiting for
approval for more than 3 years. The provision for a supplemental pension plan is included in the
local compensation plan based on prevailing practice, and employees have been receiving this
benefit since 1981. The U.S. Government contribution is 4 percent, and the employee
contribution is 5 percent.

Recommendation 12: The Bureau of Human Resources, in coordination with the Office of the
Legal Adviser, should complete its review of the locally employed staff supplemental pension
plan and advise Embassy Nassau of its decision. (Action: DGHR, in coordination with L)

Hotel and Restaurant Survey

       Embassy Nassau is delinquent in submitting the hotel and restaurant survey, which the
Department uses to update lodging and meals and incidental expenses for per diem rates. The
embassy submitted the last report in January 2006. According to the Department’s Standardized
Regulations post classification and payment table (Section 920), Embassy Nassau should
                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

complete the hotel and restaurant survey in December of odd years or whenever there are
substantial changes in hotel costs (Section 074.32). The current per diem rates may not
accurately reflect the prevailing cost of lodging and meals in each location.

Recommendation 13: Embassy Nassau should complete the required hotel and restaurant
survey and submit it to the Office of Allowances. (Action: Embassy Nassau)

        In 2010 the official residence expense staff received sizeable salary increases. The OIG
team determined that the embassy did not ask the human resources office to conduct a survey of
salaries paid to staff at other diplomatic missions before implementing these substantial
increases.

   Informal Recommendation 13: Embassy Nassau should conduct a survey of official
   residence expense staff at other diplomatic missions and comparators to ascertain the
   prevailing wages for household staff.

The embassy does not have an updated awards policy.

   Informal Recommendation 14: Embassy Nassau should reissue a mission awards policy.

After Hours Duty Program

        The duty officer program provides assistance to Americans who encounter problems and
prepares for and responds to natural disasters or other emergencies outside normal working
hours. During the OIG inspection, several officers noted concerns about duty rotations in an
embassy with a heavy duty workload. The OIG team reviewed the duty book and duty roster.
The 147-page duty book has more than 50 pages of contact numbers. There is no information on
natural disasters, death, or illness in the official community, or on how to respond to a crime
involving a member of the official community. In accordance with 2 FAM 113.8-1 to 113.8-
4(D), the management section is responsible for maintaining the duty office guide, which in
Nassau rotates only among Department officers. The consular section briefs incoming duty
officers each week. A well-functioning duty program distributes responsibilities equally among
all mission elements, allowing after hours duties to be met without overburdening any one
section or agency.

Recommendation 14: Embassy Nassau should bring the duty officer program into compliance
with Department of State guidance and update the duty officer guide with readily accessible
information relevant to all mission elements. (Action: Embassy Nassau)

General Services Office

Supply Chain Management

       Functional integration among the procurement, financial management, and property
sections is generally satisfactory. When procuring expendable supplies, the embassy strikes a
good balance between ordering from the General Services Administration and local suppliers.
For nonexpendable supplies, the embassy is able to maintain a relatively low level of storage and
personnel because landlords provide household furnishings.
                                         20
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Property Management

        Warehouse staffing levels are relatively low because nonexpendable property is limited
to appliances. Landlords supply residential furniture. Embassy residents do not return signed
residential appliance inventories. As a result, the limited embassy inventory is treated as an
afterthought. Per 14 FAM 416.3 g., employees are required to sign residential inventories.
Without an agreed inventory, it is impossible to maintain positive control of government-owned
appliances.

   Informal Recommendation 15: Embassy Nassau should require employees to sign and
   return residential inventories within 30 days of their occupancy of assigned residences.

        Property staff is not adequately trained. None has been fully trained in the automated
Integrated Logistics Management System or in Microsoft Outlook. With so few property staff
members, employees have been unable to take the time for needed training. The Department has
mandated the automated logistics system worldwide. Without basic Microsoft Word, email, and
logistics computer literacy, property staff cannot meet basic job requirements.

   Informal Recommendation 16: Embassy Nassau should provide property management staff
   members with the computer training necessary to perform their duties.

        The warehouse receiving area is not adequately defined. Because the warehouse is
relatively small, it is less formal than larger operations. Per 14 FAH-1 H-318.1-2 a. and b.,
clearly designated receiving and holding areas are necessary to prevent newly arrived, but not yet
officially inventoried, goods from being mixed with other property and to decrease the risk of
theft.

   Informal Recommendation 17: Embassy Nassau should designate a receiving area and use
   it for storage of all items not yet properly received and distributed to offices or entered into
   the warehouse inventory.

Customs and Shipping

        The embassy does a good job maintaining local contacts at the port to ensure quality
service. But the Bahamian system of shipment customs clearances is cumbersome and time
consuming, and the embassy devotes too much time to obtaining routine clearances. To clear a
shipment, the embassy employee must spend much of the day at the port getting approvals on
documentation from a succession of offices.

   Informal Recommendation 18: Embassy Nassau should determine whether outsourcing
   routine customs and shipment clearances is feasible and, if so, establish a policy to use this
   option whenever possible.

Housing

       The embassy has done an admirable job obtaining appropriate housing in a competitive
lease market. Adequate maintenance is an ongoing challenge, however.


                                         21
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

       Houses are sometimes dirty and in need of repair when employees move in. Embassy
housing staff is not able to keep up with the summer turnover; inspections and contractor
oversight are inadequate. Per the uniform ICASS standard for make readies, ICASS clients
should move into residences that are clean and in good repair. (b) (5)


      Informal Recommendation 19: Embassy Nassau should implement a comprehensive
      annual residential make-ready plan that includes adequate landlord liaison and contractor
      oversight throughout the year.

       Residential maintenance is uneven, and response time to maintenance emergencies is
sometimes delayed. The embassy relies on landlords for maintenance of its short-term leased
housing. Per Article Seven E of the model standard lease, 2 landlords are responsible for
emergency maintenance on short-term leased properties, but there is an option for the embassy to
make emergency repairs and deduct the cost from the rent. (b) (5)


      Informal Recommendation 20: Embassy Nassau should implement a comprehensive plan
      for the timely resolution of maintenance emergencies, using embassy resources when
      necessary.

       Data in the Real Property Application are sometimes inaccurate. Nassau recently
implemented the software, and staff is not consistently following Bureau of Overseas Buildings
Operations guidelines for measuring houses. As a result, some of the data are incorrect. Per 15
FAM 171.3 a., data entered into the application supports post management of the housing
program. Without good data, the embassy is unable to adhere to housing standards and make
equitable housing assignments.

      Informal Recommendation 21: Embassy Nassau should remeasure properties in
      accordance with Bureau of Overseas Buildings Operations measurement guidelines and
      adjust Real Property Application data as necessary.

       The mission has no written guidelines on an acceptable length of time for a house to
stand vacant between occupants and on who pays the lease during the vacancy. Updating the
embassy housing handbook to include 15 FAM 164 b. guidelines on vacancies would eliminate
the need for the housing board to negotiate lease costs with the recipient agency for every
housing turnover.

      Informal Recommendation 22: Embassy Nassau should update its housing handbook to
      include Department of State guidelines on vacancies.

Facilities Management

       The facilities management staff maintains the government-owned chancery,
Ambassador’s residence, DCM’s residence, marine security guard residence, and one other
residence currently occupied by the political/economic/commercial officer. There are nine total

2
    15 FAM Exhibit 341(B).
                                           22
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

facilities management staff members: three LE janitors at the chancery, one laborer who acts as
a painter, a craftsman with carpentry and masonry skills, a foreman, a plumber, an A/C
technician, and the LE facilities management supervisor who is also an electrician.

         There is no consistent U.S. direct-hire facilities management support to Embassy Nassau.
The Bureau of Overseas Buildings Operations is considering how to increase such support, and
the OIG team applauds that effort. Increasing direct interaction with experienced regional
facilities managers will assist Embassy Nassau improve its weak preventive maintenance system
for government-owned properties and its inadequate customer service for employees occupying
short-term leased properties.

Safety, Health, and Environmental Management

        The embassy recently designated the supervisory general services officer as post’s safety
and health officer, but the officer lacks the needed training and background. In addition, the
embassy lacks a comprehensive safety and health program. Because of competing priorities, the
safety program has languished. Per 15 FAM 932 and 15 FAM 933-935, a safety program,
complete with a standing committee and prescribed, at least semiannual, meetings, is required at
every Foreign Service post. Without a consistent eye to safety, employees are at risk of injury.

Recommendation 15: Embassy Nassau should institute a formal safety and health standing
committee. (Action: Embassy Nassau)

Motor Pool

       The embassy employs an eligible family member fleet manager to oversee 23 self-drive
vehicles in various states of repair, plus drivers for the Ambassador and the DCM.

        There is no driver support for employees of Embassy Nassau; employees are expected to
drive themselves in U.S. Government vehicles. The embassy has determined in past years that
hiring drivers was a low priority given the limited resources. Per 14 FAM 432.4 b., the use of
professional drivers or chauffeurs is preferred for local travel. Given the climate, severe traffic
and parking problems, and unreliable public transportation, the lack of driver support has a
negative impact on the operational effectiveness of employees. Difficulty moving around the
island results in some employees being more isolated (b) (5)

   Informal Recommendation 23: Embassy Nassau should implement a system of
   transportation support to employees.

Financial Management Operations

        There are seven positions in financial management, headed up by a first-tour financial
management officer who arrived at post in May 2010. A financial specialist, a financial assistant,
three voucher examiners, and a cashier complete the staff. One of the voucher examiners is also
the principal timekeeper.

       The OIG team reviewed unliquidated obligations for prior years and verified that all
contracts, grants, and purchase orders were current. There was one outstanding travel advance
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED

from June 2011 that was settled but pending fiscal data to be cleared. Premium travel was not an
issue because it was not authorized. The inspectors observed an unannounced cash verification
that showed the cashier’s accountability in balance and operations in order.

Vouchering

        In the OIG team’s review of payment files, approximately 10 percent of the vouchers did
not show evidence of receipt of the goods or services. A lack of coordination with the general
services office leads to inadequate documentation for receipt of goods or services. Department
regulations 4 FAH-3 H-423.5-1 c. require a proper receiving document 3 from an individual
authorized to receive and accept the goods or services prior to making payment. To permit
accountability on procurements and payments, there must be evidence of a receipt.

Recommendation 16: Embassy Nassau should include documentation reflecting receipt of
goods and services on all vouchers for payment. (Action: Embassy Nassau)

Representation

       There was no management instruction outlining mission objectives for use of
representation funds and procedures for submitting claims based on current per capita limits. Per
3 FAM 3246.1, the chief of mission (COM) is required to issue guidelines for effective use of
representation funds in accordance with mission objectives. In the interest of controlling costs,
the mission should establish dollar limits for the various types of approved representation
functions.

      Informal Recommendation 24: Embassy Nassau should issue a management instruction
      outlining its policy on use of representation funds and update the per capita amounts to
      reflect current costs for restaurant and at-home meals and receptions.

        The embassy received $17,800 of in-kind contributions from local sources for the last
July 4th representation event. Per 2 FAM 964, post shall report semiannually on all gifts received
both in cash and in kind to the Resources Management Bureau Gift Funds Coordinator. The
report must provide the amount paid by the non-Federal source or a reasonable approximation of
the market value of the benefit.

Recommendation 17: Embassy Nassau should report all gifts, especially the in-kind
contributions received for the July 4, 2011, representation event. (Action: Embassy Nassau)

Accommodation Exchange
          (b) (5)                                  Part of the problem is in the consular section
and is addressed separately. Another is in accommodation exchange. According to 4 FAH-3 H-
361.2 ,the COM should determine whether accommodation exchange services will be provided
at post. When satisfactory local commercial banks, automated teller machines, or currency
exchange businesses are available for the purchase of U.S. dollars with foreign currency,
personnel can use those facilities if they are adequate, secure, and convenient. There are

3
    Defined in 4 FAH-3 H-423.5-2 b.
                                                  24
                                      SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

automatic tellers at the nearby Scotia Bank and the British Colonial Hilton.(b) (5)




Recommendation 18: Embassy Nassau should conduct a management review to determine
whether outsourcing accommodation exchange would be beneficial and cost effective and, if so,
institute a policy to use this option whenever possible. (Action: Embassy Nassau)

Information Management and Information Security

        Embassy Nassau’s information management program generally meets the information
processing and communication needs of the mission. The program is led by a mid-level officer
who has fulfilled the duties of his position while simultaneously serving as the management
officer during times of need. The OIG team reviewed systems management, telephone
operations, radio programs, and mail operations. Information security issues are covered in the
classified annex to this report.

        Staffing gaps have diminished the overall effectiveness of the program, which is fully
staffed for the first time in over a year with the recent arrival of the information systems officer.
(b) (5)




    Informal Recommendation 25: Embassy Nassau should implement a leadership plan for
    the information management office that includes revising and clarifying duties and locally
    employed staff supervisory roles in the information systems center.

Information Systems Center

        Customer support is the information systems center’s primary function. However, the
center does not provide consistent support during business hours, which can adversely affect
customer productivity. The provision of continuous and reliable systems support during business
hours is critical to the maintenance and operation of the Department’s network.

    Informal Recommendation 26: Embassy Nassau should implement a plan to provide
    consistent systems support to customers during embassy business hours.

Dedicated Internet Networks

        Embassy Nassau has not registered its dedicated Internet networks with the Bureau of
Information Resource Management as required by 5 FAM 872.2. Post must justify a dedicated
Internet network by demonstrating a clear need that cannot be met by the unclassified network. If
not appropriately managed and justified, dedicated Internet networks divert resources from the
Department’s OpenNet network. (b) (5)



                                           25
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 27: Embassy Nassau should register all dedicated Internet
   networks with the Bureau of Information Resource Management.

Unclassified Server Room Cabling

       The unclassified server rooms contain network cables that are not organized and labeled
appropriately. Competing priorities have left the information management staff with minimal
time for cabling work. According to guidelines in 5 FAH-9 H-380, information management
staff must label infrastructure and equipment components uniquely and legibly. Inadequately
documented network cabling could potentially hamper staff efforts to fix network connectivity
problems and increases the risk of unauthorized devices being introduced into the network.

Recommendation 19: Embassy Nassau should organize and appropriately label the unclassified
server room network cabling. (Action: Embassy Nassau)

Electrical and Cabling Racks

       All of the electrical racks in the chancery need maintenance. The racks have surplus
wires and unlabeled cabling, which could result in wasted time during maintenance. (b) (5)



Recommendation 20: Embassy Nassau should organize and appropriately label all electrical
racks. (Action: Embassy Nassau)
       (b) (5)




Recommendation 21: (b) (5)


Radio Network

        Embassy Nassau does not have host nation approval to operate its emergency radio
network frequencies per 5 FAM 541c. The requirement is in place to ensure interference-free
radio communication, which is especially vital in the event of a natural disaster or other
emergency. Embassy files contain correspondence between the mission and the host nation, but
nothing that indicates consent for the use of the frequencies.

Recommendation 22: Embassy Nassau should request approval from the Government of The
Bahamas for use of all embassy radio frequencies. (Action: Embassy Nassau)

        Poor radio reception is an area of concern, but the embassy has been unable to determine
the cause of the problem. Some families on the island have difficulty communicating during
radio testing. Poor reception diminishes the effectiveness of the radio program, which is a critical
part of the mission’s emergency preparedness program.


                                          26
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 23: Embassy Nassau, in coordination with the Bureau of Information
Resource Management and the Regional Information Management Center Florida, should
improve the embassy’s radio network reception. (Action: Embassy Nassau, in coordination with
IRM and RIMC Florida)

        Furthermore, the mission does not have a current radio inventory. This issue was
identified in November 2010 but, due to competing priorities, remains unaddressed. A complete
and up-to-date radio inventory is essential to the mission’s emergency preparedness program.

Recommendation 24: Embassy Nassau should conduct an inventory of all radios and implement
procedures to keep the inventory current. (Action: Embassy Nassau)




                                        27
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

        The CLO, which appears to manage an active program, consists of one coordinator. She
received CLO training in Rwanda 3 years ago but has not received training in Washington. The
coordinator regularly attends the country team meeting and meets each week with the DCM. The
coordinator has attempted to bring groups of officers and their families living in Nassau and
Freeport together for various community events, but given the groups’ geographic separation (on
two islands 120 miles apart), these events have not been successful. Other challenges facing the
coordinator include difficult traffic conditions, the distance between schools and officers’ homes,
and an increase in dengue fever. The CLO coordinator works closely with the three schools to
develop a more reliable and convenient participant-funded bus system for eligible family
member students attending the schools at opposite ends of the island. She is also working to
improve the embassy community’s knowledge of and preventive measures for dengue fever. The
coordinator recognizes that the lack of a regular mission publication is hampering efforts to
create a cohesive community. The embassy is hiring a part-time employee to publish a weekly
electronic newsletter.

International Schools

     The three international schools the mission uses meet the needs of the embassy
community. (b)(5)(b)(6)




Health Unit

        According to quality-of-life questionnaires and individual interviews, clients lack
confidence in the services of both the health unit and local medical providers. The health unit is
located in leased space of a local health clinic near a gated community in which the embassy
leases approximately 30 houses. The LE staff nurse position was recently vacated, but the
embassy expects to fill it soon. Nurse hours have varied over the years, but clients believe that
the position should be full time to serve the mission adequately.

        Because ambulance service is also perceived as unreliable, clients are not confident that
they can get adequate medical care of any kind locally. According to the director of medical
services in Washington, the embassy nurse has been under pressure from clients to approve
medical evacuations to the United States even when local care is adequate. According to 16
FAM 311, medical evacuations should be limited to cases that cannot be adequately treated by
local health care providers.



                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 28: Embassy Nassau should evaluate the services of the health
   unit in relation to local medical conditions to determine whether the current part-time
   schedule for the nurse is meeting the needs of employees.

   Informal Recommendation 29: Embassy Nassau should institute a comprehensive medical
   orientation for employees and families that includes detailed documentation on local health
   care providers, a concise emergency numbers card, and driving tours of local providers.

   Informal Recommendation 30: Embassy Nassau should identify transportation options for
   medical emergencies.

Employee Recreation Association

       Post management advised the OIG team that it had disbanded the American Employee
Association and closed the commissary due to lack of a governing board and internal controls. In
accordance with 6 FAM 521 a., the principal officer at each post should determine the continuing
need for existing facilities. The only inventory in the commissary was beer and a few logo items.
The Office of Commissary and Recreation Affairs plans to seek Central Fund Board Chair
approval to place the association in trusteeship, with the ultimate goal of liquidating the assets of
the organization.

Recommendation 25: Embassy Nassau, in coordination with the Bureau of Administration,
should proceed with terminating the American Employee Association and liquidating the
remaining inventory. (Action: Embassy Nassau, in coordination with A)




                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The COM annual management controls assurance statement contained no reportable
weaknesses. However, the management controls coordinator did mention instances where
cleaning services for residences were being paid for in cash. Also, motor vehicle usage forms
were not being completed to account for mileage. The general services officer has since started
using blanket purchase agreements for cleaning services and is comparing vehicle fuel
consumption to miles driven to ascertain whether fuel is being misused. The OIG team noted
deficiencies in management controls within general services and financial management.

Ambassadorial Absences from Post

       The Department has not followed its own guidance or procedures for approving COM
absences from post. The Ambassador was absent from post for 276 days during a 670-day period
from November 19, 2009, to September 19, 2011—an average of 12 days per month. The 276
days include 84 nonwork days (weekends and holidays) and 102 personal leave days. The
Ambassador also traveled to the United States for 77 work days on what she identified as
business, with 23 days on what appear to have been official travel orders. All travel was at her
personal expense except when she was on official travel orders. The Ambassador requested
permission each time from the Department when she visited the United States. In each case, the
Bureau of Western Hemisphere Affairs approved her request. The frequent absences of the
Ambassador contributed to poor mission management.

       U.S. Code 5 U.S.C. 6301(2)(A)(xii) exempts the Ambassador from accounting for annual
and sick leave. The implementation of this exemption is addressed in 3 FAM 3320 and 3 FAH-1
H-3320, which note 4 that the COM is "on duty at all times, including periods of vacation and
sickness." On October 21, 2008, the Under Secretary for Management issued a memo amending
the process for approving COM requests for permission to be away from post by requiring the
regional bureau to forward such requests to the Under Secretary’s office for approval when the
number of work days away from post (on other than temporary duty orders) in a calendar year
exceeded 26.

       In 2010, The Bureau of Western Hemisphere Affairs referred the three instances of
absence to the Under Secretary. Because the documentation from Nassau did not follow the
requirements of 3 FAH-1 H-3323 and 3324 and the requests from the regional bureau to the
Under Secretary did not follow the October 21, 2008, memo, the Under Secretary did not have
accurate information upon which to make a decision. As a result, the Department authorized the
Ambassador to be away from her post for 139 days in 2010.

Recommendation 26: Embassy Nassau should make all requests for chief of mission absences
from post in compliance with relevant regulations. (Action: Embassy Nassau)

Recommendation 27: The Bureau of Western Hemisphere Affairs should abide by the Foreign
Affairs Manual and Under Secretary for Management’s instructions regarding chief of mission
absences from post. (Action: WHA)


4
    3 FAM 3323.2
                                         30
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The October 2008 memo states that “the regulations governing COM absence from post
are conflicting and current practice has grown both confusing and subject to potential abuse from
that lack of clarity.” The memo further states that it is “an interim amendment to the FAM and
FAH, which will be redrafted to reflect this new approval process.” The 3 FAM 3320 and 3
FAH-1 H-3320 sections governing absence of the COM have not been updated since March 24,
2005. The current process is confusing and subject to potential abuse.

Recommendation 28: The Bureau of Human Resources should update the Foreign Affairs
Manual and the Foreign Affairs Handbook to reflect the current process for approving chief of
mission absences from post. (Action: DGHR)

Consular Fee Collections

        The consular subcashier collects fees for the full range of consular services, including
machine-readable visa application fees. A review of FY 2010 consular collections showed that
the consular subcashier frequently handled (b) (5)     in fees per month. (b) (5)
                                                                     and the accountable consular
officer oversees consular collections appropriately. The accountable consular officer and
financial management officer are compliant with instructions in 7 FAH-1 Exhibit H-770.1 and
with 4 FAM 322. (b) (5)

            Using off-site collections of machine-readable visa fees or credit cards for collecting
other consular fees could eliminate most of the cash now handled. Consular equipment and
supplies are accounted for appropriately and stored securely.

Recommendation 29: (b) (5)


eServices

       The mission has not deployed some automated procedures that would improve internal
controls, give managers better processes, and enhance customer service. Per telegram 08 STATE
133010, eServices is the Department-wide standard for submitting requests for administrative
services. However, the embassy is using eServices only for motor pool requests. The general
services section could improve its efficiency by using eServices for maintenance services,
property receiving, and expendable supplies applications as well.

Recommendation 30: Embassy Nassau should implement eServices for all administrative
services requests. (Action: Embassy Nassau)

Vehicle Usage

        Because the embassy does not have a motor pool, it authorizes employee self-drive and
uses a local gas station for refueling official vehicles. The embassy reviews invoices for charges
and compares them to gas consumption each month. However, the driver who records mileage
and gas consumption does not always complete the vehicle daily use record (Official Form-108).
According to 14 FAM 436.1 a., all drivers of official vehicles must complete the daily vehicle
use record. The employee operating the vehicle must complete the form daily, except for
                                          31
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

passenger signatures. The responsible officer or employee must periodically review the Official
Form-108 for each vehicle and must check the accuracy of odometer readings. The embassy has
no way of assuring that fuel usage tracks with the number of kilometers driven, a shortcoming
that could permit misuse of official gas cards.

Recommendation 31: Embassy Nassau should implement procedures for drivers of official
vehicles to complete the daily vehicle use record and for the responsible employee to verify
proper use of official gas cards. (Action: Embassy Nassau)

Separation of Duties

        The employee performing physical inventories also manages the paper inventory.
Because of lack of training, the property management supervisor sometimes assigns the same
employee to do both the physical and paper inventories. In accordance with 14 FAM 411.2 d., a
sound management control system must ensure that no one individual controls all aspects of any
transaction affecting the receipt, storage, or disposition of expendable or nonexpendable personal
property. A lack of checks and balances increases vulnerability to theft and fraud.

Recommendation 32: Embassy Nassau should establish the appropriate separation of duties
required for physical and paper inventories. (Action: Embassy Nassau)

Vouchering

       Payment vouchers do not show a paid stamp or perforation to annul the documentation as
required by 4 FAH-3 H-422.6 a., which states that vouchers, voucher schedules, and supporting
documentation must be marked clearly to prevent duplicate processing. A stamp or other form of
mark should be used to indicate “PAID” on all payment documents.

   Informal Recommendation 31: Embassy Nassau should obtain a stamp or perforation
   machine to annul vouchers and supporting documentation immediately after payment.

      The embassy made several payments against copies of invoices as opposed to originals.
Department regulation 4 FAH 3 H-422.6 a. states that if the original invoice is lost, a copy
marked “Duplicate Original” may be used when supported by an administrative approval on the
document.

   Informal Recommendation 32: Embassy Nassau should mark copies of invoices as
   “Duplicate Original” if the original is lost or not available and include a statement indicating
   the establishment of administrative control to prevent duplicate payments.

Overtime

       In reviewing time and attendance reporting, the OIG team noticed that LE staff overtime
was not always approved in advance as required by the Embassy Nassau Locally Employed Staff
Employee Handbook (p. 15). More than $73,000 was spent in overtime in FY 2010.




                                         32
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

   Informal Recommendation 33: Embassy Nassau should issue a management notice
   reminding employees and supervisors of the requirement to request and approve overtime in
   advance.

Cell Phones and BlackBerry Devices

        Nearly every American on staff has a BlackBerry communications device without a
business justification. Management acknowledges loose internal controls in the program and
plans to correct deficiencies to save costs.

   Informal Recommendation 34: Embassy Nassau should revise its mobile communications
   policy to establish a formal approval process for BlackBerry issuance that contains a higher
   threshold of U.S. Government interest.

   Informal Recommendation 35: Embassy Nassau should review current use and establish a
   business justification for each issued BlackBerry device.

        In addition to having lax issuance controls, the mission is allowing employees to make
personal calls on their official cellular phones and BlackBerry devices. The post administrative
policy on use of cell phones describes the procedure whereby every month, the information
management officer sends a notice to each individual with a cell phone or BlackBerry bill
exceeding $50. Each cell phone or BlackBerry user is supposed to identify personal calls and
return the annotated bill to the receptionist. The receptionist then bills the individual for the
personal calls and forwards a copy to the embassy cashier. The financial management office does
not maintain a centralized accounts receivable ledger to track outstanding indebtedness,
including cell phones and BlackBerry personal charges. It is the responsibility of the receptionist
to track the bills and payments.

        Per 5 FAM 526.1, U.S. Government-owned cellular telephones are for official business.
Each post must establish a policy on the personal use of government-issued cellular telephones.
At a minimum, this policy must define whether personal use is allowed and the limits for
personal use without the requirement for employee reimbursement to the issuing agency. Also,
the policy must include provisions to maintain adequate fiscal control, set forth user
responsibilities, require a signed receipt when phones are issued, provide a method whereby the
user must validate his/her calls each billing cycle, require the user to return the instrument upon
transfer, and detail the applicable security restrictions. A lack of controls creates a vulnerability
for misuse and abuse of official cellular telephones.

   Informal Recommendation 36: Embassy Nassau should establish and enforce a cell phone
   use policy consistent with Department of State regulations.




                                           33
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: (b) (5)


Recommendation 2: The Bureau of Human Resources, in coordination with Embassy Nassau
and the Bureau of Western Hemisphere Affairs, should convert the political/economic/
commercial section office manager position to an eligible family member position. (Action:
DGHR, in coordination with Embassy Nassau and WHA)

Recommendation 3: Embassy Nassau, in coordination with the Bureau of Western
Hemisphere Affairs and the Bureau of Resource Management, should fund a locally employed
office manager position, in lieu of not filling the direct-hire position in the political/economic/
commercial section, by reallocating bureau support funds for the eliminated position and
including additional central funds, as necessary. (Action: Embassy Nassau, in coordination with
WHA and RM)

Recommendation 4: Embassy Nassau should use the Alumni Archive as its exchange program
alumni database and work with the Bureau of Educational and Cultural Affairs, Office of Alumni
Affairs, to promote alumni outreach activities in The Bahamas. (Action: Embassy Nassau)

Recommendation 5: Embassy Nassau should review Department of State criteria for
recommending waivers of visa ineligibilities and apply those standards to the visa process to
facilitate the application of consistent policy for each waiver recommendation. (Action: Embassy
Nassau)

Recommendation 6: Embassy Nassau should update its visa referral program and institute
procedures to comply with Department of State regulations. (Action: Embassy Nassau)

Recommendation 7: Embassy Nassau should implement a comprehensive support plan for
Freeport that includes at least quarterly visits by the management officer. (Action: Embassy
Nassau)

Recommendation 8: Embassy Nassau should implement a comprehensive housing program
for Freeport that includes at least quarterly visits by the supervisory general services officer.
(Action: Embassy Nassau)

Recommendation 9: Embassy Nassau should designate an International Cooperative
Administrative Support Services customer service representative to help process work orders and
advocate for and manage client interests. (Action: Embassy Nassau)

Recommendation 10: Embassy Nassau should reconstitute the International Cooperative
Administrative Support Services council and budget committee in accordance with Department
of State regulations. (Action: Embassy Nassau)

Recommendation 11: Embassy Nassau should update all outdated locally employed staff
position descriptions to reflect actual responsibilities and duties performed. (Action: Embassy
Nassau)

                                          34
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of Human Resources, in coordination with the Office of the
Legal Adviser, should complete its review of the locally employed staff supplemental pension
plan and advise Embassy Nassau of its decision. (Action: DGHR, in coordination with L)

Recommendation 13: Embassy Nassau should complete the required hotel and restaurant
survey and submit it to the Office of Allowances. (Action: Embassy Nassau)

Recommendation 14: Embassy Nassau should bring the duty officer program into compliance
with Department of State guidance and update the duty officer guide with readily accessible
information relevant to all mission elements. (Action: Embassy Nassau)

Recommendation 15: Embassy Nassau should institute a formal safety and health standing
committee. (Action: Embassy Nassau)

Recommendation 16: Embassy Nassau should include documentation reflecting receipt of
goods and services on all vouchers for payment. (Action: Embassy Nassau)

Recommendation 17: Embassy Nassau should report all gifts, especially the in-kind
contributions received for the July 4, 2011, representation event. (Action: Embassy Nassau)

Recommendation 18: Embassy Nassau should conduct a management review to determine
whether outsourcing accommodation exchange would be beneficial and cost effective and, if so,
institute a policy to use this option whenever possible. (Action: Embassy Nassau)

Recommendation 19: Embassy Nassau should organize and appropriately label the
unclassified server room network cabling. (Action: Embassy Nassau)

Recommendation 20: Embassy Nassau should organize and appropriately label all electrical
racks. (Action: Embassy Nassau)

Recommendation 21: (b) (5)


Recommendation 22: Embassy Nassau should request approval from the Government of The
Bahamas for use of all embassy radio frequencies. (Action: Embassy Nassau)

Recommendation 23: Embassy Nassau, in coordination with the Bureau of Information
Resource Management and the Regional Information Management Center Florida, should
improve the embassy’s radio network reception. (Action: Embassy Nassau, in coordination with
IRM and RIMC Florida)

Recommendation 24: Embassy Nassau should conduct an inventory of all radios and
implement procedures to keep the inventory current. (Action: Embassy Nassau)

Recommendation 25: Embassy Nassau, in coordination with the Bureau of Administration,
should proceed with terminating the American Employee Association and liquidating the
remaining inventory. (Action: Embassy Nassau, in coordination with A)

Recommendation 26: Embassy Nassau should make all requests for chief of mission absences
from post in compliance with relevant regulations. (Action: Embassy Nassau)
                                         35
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 27: The Bureau of Western Hemisphere Affairs should abide by the
Foreign Affairs Manual and Under Secretary for Management’s instructions regarding chief of
mission absences from post. (Action: WHA)

Recommendation 28: The Bureau of Human Resources should update the Foreign Affairs
Manual and the Foreign Affairs Handbook to reflect the current process for approving chief of
mission absences from post. (Action: DGHR)

Recommendation 29: (b) (5)


Recommendation 30: Embassy Nassau should implement eServices for all administrative
services requests. (Action: Embassy Nassau)

Recommendation 31: Embassy Nassau should implement procedures for drivers of official
vehicles to complete the daily vehicle use record and for the responsible employee to verify
proper use of official gas cards. (Action: Embassy Nassau)

Recommendation 32: Embassy Nassau should establish the appropriate separation of duties
required for physical and paper inventories. (Action: Embassy Nassau)




                                         36
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Nassau should provide training for the current Equal
Employment Opportunity counselor at the next available opportunity.

Informal Recommendation 2: Embassy Nassau should nominate a second Equal Employment
Opportunity counselor for training and designation.

Informal Recommendation 3: Embassy Nassau should write a political/economic/ commercial
reporting plan that is tied to Mission Strategic and Resource Plan goals and includes information
from law enforcement entities in the mission.

Informal Recommendation 4: Embassy Nassau should increase the quality of its
political/economic/commercial reporting by adding more context and analysis.

Informal Recommendation 5: Embassy Nassau should create and use a central contact
database.

Informal Recommendation 6: Embassy Nassau should assign responsibility for grants
administration to the political/economic/commercial section office management specialist and
the narcotics affairs section locally employed staff according to their areas of responsibility and
provide them with the necessary training.

Informal Recommendation 7: Embassy Nassau should develop quantitative evidence
documenting the need for a public affairs section administrative/program assistant and request
the position in its next strategic planning request.

Informal Recommendation 8: Embassy Nassau should improve consular signage to provide
consular clientele with clear directions.

Informal Recommendation 9: Embassy Nassau should designate and train one employee to
maintain the consular content on the embassy Internet site and to perform the updates in
coordination with the public affairs section and the Bureau of Consular Affairs webmaster.

Informal Recommendation 10: Embassy Nassau should update the visa appointment system
so that appropriate accommodations are in place for applicants coming from other islands in the
consular district.

Informal Recommendation 11: Embassy Nassau should update the information on the
embassy’s Internet site so that instructions for making visa appointments address applicants
traveling from other islands in the consular district.


                                          37
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 12: Embassy Nassau should have the customer service
representative provide training to clients on automated work request programs.

Informal Recommendation 13: Embassy Nassau should conduct a survey of official residence
expense staff at other diplomatic missions and comparators to ascertain the prevailing wages for
household staff.

Informal Recommendation 14: Embassy Nassau should reissue a mission awards policy.

Informal Recommendation 15: Embassy Nassau should require employees to sign and return
residential inventories within 30 days of their occupancy of assigned residences.

Informal Recommendation 16: Embassy Nassau should provide property management staff
members with the computer training necessary to perform their duties.

Informal Recommendation 17: Embassy Nassau should designate a receiving area and use it
for storage of all items not yet properly received and distributed to offices or entered into the
warehouse inventory.

Informal Recommendation 18: Embassy Nassau should determine whether outsourcing
routine customs and shipment clearances is feasible and, if so, establish a policy to use this
option whenever possible.

Informal Recommendation 19: Embassy Nassau should implement a comprehensive annual
residential make-ready plan that includes adequate landlord liaison and contractor oversight
throughout the year.

Informal Recommendation 20: Embassy Nassau should implement a comprehensive plan for
the timely resolution of maintenance emergencies, using embassy resources when necessary.

Informal Recommendation 21: Embassy Nassau should remeasure properties in accordance
with Bureau of Overseas Buildings Operations measurement guidelines and adjust Real Property
Application data as necessary.

Informal Recommendation 22: Embassy Nassau should update its housing handbook to
include Department of State guidelines on vacancies.

Informal Recommendation 23: Embassy Nassau should implement a system of transportation
support to employees.

Informal Recommendation 24: Embassy Nassau should issue a management instruction
outlining its policy on use of representation funds and update the per capita amounts to reflect
current costs for restaurant and at-home meals and receptions.

Informal Recommendation 25: Embassy Nassau should implement a leadership plan for the
information management office that includes revising and clarifying duties and locally employed
staff supervisory roles in the information systems center.

Informal Recommendation 26: Embassy Nassau should implement a plan to provide
consistent systems support to customers during embassy business hours.
                                          38
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 27: Embassy Nassau should register all dedicated Internet
networks with the Bureau of Information Resource Management.

Informal Recommendation 28: Embassy Nassau should evaluate the services of the health unit
in relation to local medical conditions to determine whether the current part-time schedule for the
nurse is meeting the needs of employees.

Informal Recommendation 29: Embassy Nassau should institute a comprehensive medical
orientation for employees and families that includes detailed documentation on local health care
providers, a concise emergency numbers card, and driving tours of local providers.

Informal Recommendation 30: Embassy Nassau should identify transportation options for
medical emergencies.

Informal Recommendation 31: Embassy Nassau should obtain a stamp or perforation machine
to annul vouchers and supporting documentation immediately after payment.

Informal Recommendation 32: Embassy Nassau should mark copies of invoices as “Duplicate
Original” if the original is lost or not available and include a statement indicating the
establishment of administrative control to prevent duplicate payments.

Informal Recommendation 33: Embassy Nassau should issue a management notice reminding
employees and supervisors of the requirement to request and approve overtime in advance.

Informal Recommendation 34: Embassy Nassau should revise its mobile communications
policy to establish a formal approval process for BlackBerry issuance that contains a higher
threshold of U.S. Government interest.

Informal Recommendation 35: Embassy Nassau should review current use and establish a
business justification for each issued BlackBerry device.

Informal Recommendation 36: Embassy Nassau should establish and enforce a cell phone use
policy consistent with Department of State regulations.




                                          39
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Principal Officials

                                                              Name              Arrival Date
Ambassador                                           Nicole Avant                 10/09*
Deputy Chief of Mission                              John Dinkelman                08/11
Chiefs of Sections:
 Management                                          Cheryl Moore                  07/11
 Consular                                            John Armstrong                08/11
 Political/Economic                                  Alex Sokoloff                 07/11
 Public Affairs                                      Erica Thibault                08/10
 Regional Security                                   Bradley Lynn                  12/10
Other Agencies:
Office of Defense Cooperation                        LCDR Janice Smith             12/08
Department of Homeland Security
     Customs and Border Protection                   R. Allen Smith                10/10
     Immigration and Customs Enforcement             Elizabeth Conner              05/10
     Transportation Security Administration          Lawrence Mizell               08/10
     U.S. Coast Guard                                LCDR Louie C. Parks, Jr.      09/09
Drug Enforcement Administration                      James Connolly                07/09
*Note: Ambassador Avant departed post on November 21, 2011.




                                           40
                               SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors
CBP             Bureau of U.S. Customs and Border Protection
CLO             Community liaison office
COM             Chief of Mission
DCM             Deputy chief of mission
Department      U.S. Department of State
EEO             Equal Employment Opportunity
FAH             Foreign Affairs Handbook
FAM             Foreign Affairs Manual
ICASS           International Cooperative Administrative Support Services
LE              Locally employed
MSRP            Mission Strategic and Resource Plan
OIG             Office of Inspector General
PAO             Public affairs officer
PAS             Public affairs section




                            41
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




    SENSITIVE BUT UNCLASSIFIED
